RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-261
Jeff Schulz and Ellen Schulz, et al.,
Petitioners,
v.
The Presbytery of Seattle, et al.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Paul J. Zidlicky, certify that
the Brief of Law and Religion and Constitutional Law Professors as Amici Curiae in
Support of Petitioners in the foregoing case contains 5,400 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 2, 2020.
/s/ Paul J. Zidlicky
PAUL J. ZIDLICKY
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20009
(202) 736-8000

